HHS/OIG-Audit--"Office of Inspector General Partnership with the State of Ohio, Office of the Auditor's Report on Payments for Medicaid Services to Deceased Recipients, (A-05-00-00045)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Office of Inspector General Partnership with the State of Ohio, Office
of the Auditor's Report on Payments for Medicaid Services to Deceased Recipients,"
(A-05-00-00045)
May 17, 2000
Complete Text of Report is available in PDF format
(1.42 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This audit was made by the Ohio Office of the Auditor and was conducted as
part of the Inspector General's partnership efforts with States to expand audit
coverage of the Medicaid program. The Office of the Auditor's final report points
out that, during a period of almost 6 years, the Ohio Department of Human Services
(ODHS) paid $82 million to providers claiming reimbursement for services to
beneficiaries who were actually deceased at the time the services were supposedly
performed. The ODHS is recovering the overpayments, but $14 million ($8.5 million
Federal share) remained outstanding as of September 30, 1999. In addition to
the financial adjustments and other procedural corrections, the Office of the
Auditor recommended that ODHS propose legislation giving ODHS the authority
to develop and apply sanctions against providers who do not report a beneficiary's
death in a timely manner, or who bill for or retain unearned reimbursements,
including reimbursements for services after a beneficiary's date of death. The
ODHS generally agreed with the recommendations.